   March 25, 2004




Export Controls
Export-Controlled Technology at
Contractor, University, and Federally
Funded Research and Development
Center Facilities
(D-2004-061)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DFARS                 Defense Federal Acquisition Regulation Supplement
EAR                   Export Administration Regulations
FFRDC                 Federally Funded Research and Development Center
IG DoD                Inspector General of the Department of Defense
ITAR                  International Traffic in Arms Regulations
NISPOM                National Industrial Security Program Operating Manual
           Office of the Inspector General of the Department of Defense
Report No. D-2004-061                                                     March 25, 2004
 (Project No. D2003LG-0145)

       Export-Controlled Technology at Contractor, University, and
       Federally Funded Research and Development Center Facilities

                                 Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers
responsible for controlling the release of technology or technical data detrimental to our
national security should read this report. The report discusses the steps DoD needs to take
to identify unclassified export-controlled technology and to ensure that DoD contractors,
universities, and Federally Funded Research and Development Centers are preventing
unauthorized disclosure to foreign nationals.

Background. Public Law 106-65, “National Defense Authorization Act for FY 2000,”
section 1402, “Annual Report on Transfers of Militarily Sensitive Technology to Countries
and Entities of Concern,” October 5, 1999, requires that the Inspectors General of the
Departments of Commerce, Defense, Energy, and State, in consultation with the Director
of Central Intelligence and the Director of the Federal Bureau of Investigation conduct
annual reviews of the transfer of military technologies to countries and entities of concern.

The United States Government restricts the release of critical technologies, including
technical data, to foreign nationals through the Export Administration Regulations and the
International Traffic in Arms Regulations. U.S. entities are generally required to obtain an
export license before providing foreign nationals access to software or technology that is
subject to export licensing requirements. Within DoD, multiple offices oversee the
development and implementation of export control policies and control foreign nationals
access. The Under Secretary of Defense for Acquisition, Technology, and Logistics is
responsible for the implementation of DoD technology transfer policies for all research,
development, and acquisition matters. The Deputy Under Secretary of Defense for
Technology Security Policy and Counterproliferation is responsible for international
technology transfers, including export controls and licensing, and the DoD Technology
Security Program which includes the development of DoD positions on export licenses by
the Defense Technology Security Administration. Three major activities within the Office
of the Under Secretary of Defense for Intelligence also work to control foreign nationals
access to export-controlled technology.

Results. DoD does not have adequate processes to identify unclassified export-controlled
technology and to prevent unauthorized disclosure to foreign nationals. Of the
11 contractors, 6 universities, and 3 Federally Funded Research and Development Centers
visited:

       •   15 relied on the contract to identify whether the technology was export
           controlled.
       •   Three of the 11 contractors and 1 of the 3 Federally Funded Research and
           Development Centers were unaware of Federal export laws and regulations
           related to export-controlled technology.

As a result, at least two contractors and one university granted foreign nationals access to
unclassified export-controlled technology without proper authorization. Unauthorized
access to unclassified export-controlled technology could allow foreign nations to counter
or reproduce the technology and thus reduce the effectiveness of the technology,
significantly alter program direction, or degrade combat effectiveness. Guidance on
export-controlled technology should be developed and implemented to be commensurate
with acquisition and classification guidance. Specifically, guidance should be developed to
include responsibilities and requirements for DoD personnel and contractor, university, and
Federally Funded Research and Development Center facilities. In addition, because DoD
program managers and contracting officers are not required to incorporate specific Federal
export requirements into the contract, those facilities who rely on the contract to identify
export-controlled technology may not be aware that export-controlled technology exists.
Therefore, the Defense Federal Acquisition Regulation Supplement should be changed to
incorporate the requirements of Federal export laws and regulations and to ensure that DoD
program managers and contracting officers incorporate the requirements into contractual
language. Implementing the recommendations in this report should correct the
management control weaknesses identified for both the Under Secretary of Defense for
Acquisition, Technology, and Logistics and the Deputy Under Secretary of Defense for
Technology Security Policy and Counterproliferation. See the finding for the detailed
recommendations.

Management Comments. The Under Secretary of Defense for Acquisition, Technology,
and Logistics concurred with the recommendation. Specifically, the Under Secretary of
Defense for Acquisition, Technology, and Logistics will initiate the process of changing
the Defense Federal Acquisition Regulation Supplement in accordance with the
recommendation, and the process will take an estimated 10 months to complete. The
Director, Defense Research and Engineering will ensure that the DoD Components that
issue science and technology contracts are aware of the Federal export regulations and the
planned changes to the Defense Federal Acquisition Regulation Supplement. The Director,
Defense Research and Engineering will also ensure that the science and technology
contracts comply with those changes. The Deputy Under Secretary of Defense for
Technology Security Policy and Counterproliferation concurred in general with the finding
and recommendation. Specifically, the Deputy Under Secretary of Defense for Technology
Security Policy and Counterproliferation stated that the revised guidance will be applicable
to all export-controlled technology and should be issued in April 2004. However, she also
stated that guidance already exists which clearly prohibits the transfer of controlled
technology by all Government and private entities without an export license, authorization,
or exemption; includes detailed Commerce Control List and U.S. Munitions List item
references; and establishes points of contact to answer licensing questions. In addition, the
Deputy Under Secretary of Defense for Technology Security Policy and
Counterproliferation stated that teams of functional area experts will soon be available to
brief program managers, research center personnel, and other interested parties on request.
See the Finding section of the report for a discussion of the management comments and the
Management Comments section of the report for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                                             i

Background                                                                   1

Objectives                                                                   3

Finding
     DoD Export-Controlled Technology                                        5

Appendixes
     A. Scope and Methodology                                                21
          Management Control Program Review                                  22
     B. Prior Coverage                                                       24
     C. Report Distribution                                                  26

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   29
     Deputy Under Secretary of Defense for Technology Security Policy and
        Counterproliferation                                                 32
    This audit was performed to meet the requirement of Public Law 106-65,
    “National Defense Authorization Act for FY 2000,” section 1402, “Annual
    Report on Transfers of Militarily Sensitive Technology to Countries and Entities
    of Concern,” October 5, 1999, which states:

    “(a) ANNUAL REPORT. – Not later than March 30 of each year beginning in
    the year 2000 and ending in the year 2007, the President shall transmit to
    Congress a report on transfers to countries and entities of concern during the
    preceding calendar year of the most significant categories of United States
    technologies and technical information with potential military applications.

    “(b) CONTENTS OF REPORT. – The report required by subsection (a) shall
    include, at a minimum, the following:

                      *       *      *       *       *       *      *

           “(3) An audit by the Inspectors General of the Departments of Defense,
                State, Commerce, and Energy, in consultation with the Director of
                Central Intelligence and the Director of the Federal Bureau of
                Investigation, of the policies and procedures of the United States
                Government with respect to the export of technologies and technical
                information referred to in subsection (a) to countries and entities of
                concern.”

    This report addresses the DoD portion of the required FY 2004 interagency
    review. An interagency report will also be issued.


Background
    Both the Department of Commerce’s Export Administration Regulations (EAR),
    15 Code of Federal Regulations, part 730, and the Department of State’s
    International Traffic in Arms Regulations (ITAR), 22 Code of Federal
    Regulations, part 120, are U.S. Statutes and regulations that restrict the export of
    technology or technical data to foreign nationals working in or visiting the United
    States.

    Department of Commerce Requirements. The Commerce Bureau of Industry
    and Security controls the export of dual-use commodities using the authority
    provided in the Export Administration Act of 1979, as amended (appendix
    section 2401, title 50, United States Code [50 U.S.C. 2401]). The Export
    Administration Act expired in August 1994. However, the President, under
    authority of the International Emergency Economic Powers Act (50 U.S.C. 1701),
    continued the provision of the Export Administration Act through Executive
    Orders 12924 and 13222, “Continuation of Export Control Regulations,”
    August 19, 1994, and August 17, 2001, respectively. Each year thereafter, and
    most recently on August 7, 2003, the President issued “Notice Continuation of
    Emergency Export Control Regulations,” continuing the emergency declared by
    Executive Order 13222. The EAR implements the Export Administration Act
    requirements for executing the export licensing process for dual-use commodities


                                         1
and contains the Commerce Control List that identifies dual-use commodities,
technology, or software subject to the process and conditions under which they
may be exported.

Any software or technology that is subject to the EAR and is released to a foreign
national is considered an export to the home country of the foreign national.
Those exports are commonly referred to as deemed exports. Software or
technology can be exported through:

   •   visual inspection of U.S. equipment and facilities by foreign nationals,

   •   oral exchanges of information in the United States or abroad, or

   •   the application of personal knowledge or technical experience acquired in
       the United States and applied abroad.

U.S. entities are generally required to obtain an export license before providing
foreign nationals access to software or technology that is subject to export
licensing requirements. For the purpose of consistency within the report, we will
use the term export-controlled technology to refer to deemed exports as defined
by the EAR.

Department of State Requirements. The Department of State Office of Defense
Trade Controls is responsible for registering persons or contractors approved in
controlling the export of defense-related articles and services, approving or
denying export licenses, and ensuring compliance with the Arms Export Control
Act (22 U.S.C. 2778). The ITAR implements the Arms Export Control Act and
contains the U.S. Munitions List, which identifies Defense articles, services, and
related technical data that may be exported, as well as the conditions under which
munitions may be exported. That list includes those items, technologies, and
services that are inherently military in character and could, if exported, jeopardize
national security or foreign policy interests of the United States.

The ITAR states that, unless otherwise exempted, an export license is required for
the oral, visual, or written disclosure of technical data to foreign nationals in
connection with visits by U.S. citizens to foreign countries and visits by foreign
nationals to the United States. For the purpose of consistency within the report,
we will use the term export-controlled technology to refer to technical data as
defined by the ITAR.

Responsible Offices Within DoD. The United States controls the export of
certain goods and technologies for national security, foreign policy, and
nonproliferation reasons. DoD has designated multiple offices to develop and
implement export control policy and to control foreign nationals access.

       Under Secretary of Defense for Acquisition, Technology, and
Logistics. The Under Secretary of Defense for Acquisition, Technology, and
Logistics is responsible for research and development, advanced technology,
production, logistics, acquisition policies, and procurement. The Under Secretary
of Defense for Acquisition, Technology, and Logistics is also responsible for the
implementation of DoD technology transfer policies for all research,


                                      2
    development, and acquisition matters and has designated the Director of Defense
    Research and Engineering as the advisor for DoD scientific and technical matters.
    The Director of Defense Research and Engineering is also responsible for
    oversight of science and technology programs performed by institutions of higher
    learning and industry. The Director of Defense Procurement and Acquisition
    Policy is responsible for the development and issuance of the Defense Federal
    Acquisition Regulation Supplement (DFARS).

            Under Secretary of Defense for Policy. The Under Secretary of Defense
    for Policy is responsible for the formation of defense policy and the integration
    and oversight of DoD policies and plans to achieve national security objectives to
    include international technology transfers. The Deputy Under Secretary of
    Defense for Technology Security Policy and Counterproliferation is responsible
    for policies on international technology transfers, including export controls and
    licensing, and the DoD Technology Security Program, which includes the
    development of DoD positions on export licenses by the Defense Technology
    Security Administration.

            Under Secretary of Defense for Intelligence. Three major activities
    within the Office of the Under Secretary of Defense for Intelligence work to
    control foreign nationals access to export-controlled technology. Subsequent to
    the events of September 11, 2001, the Counterintelligence Field Activity was
    formed, which is comprised of a variety of DoD counterintelligence activities, and
    acts as the liaison between DoD Components and law enforcement agencies that
    exist outside of DoD. The Defense Intelligence Agency performs background
    checks on foreign nationals that may be granted access to export-controlled
    technologies and recommends whether to grant or deny the export license. The
    Defense Security Service is responsible for providing DoD with a full range of
    security support services such as industrial security training, awareness, and
    compliance reviews for the protection of classified data, including that which is
    export controlled.

            In 2003, the Defense Security Service issued its annual study,
    “Technology Collection Trends in the U.S. Defense Industry 2003,” which
    summarizes reports of suspicious foreign activity. For calendar year 2002,
    818 incidents of suspicious activity were reported from 84 countries. Those
    incidents continue to increase from year to year with information systems, sensors
    and lasers, and electronics among the most targeted technologies. The extent of
    foreign interest in and methods of collection for those technologies have changed
    over the years, from passive attempts to more sophisticated activities. Some of
    the top methods used for gaining access to targeted technology are as subtle as
    requests for scientific and technical data, attempts to acquire technology, and
    inappropriate conduct by foreign nationals during visits to U.S. facilities.


Objectives
    Our overall audit objective was to evaluate the adequacy of DoD policies
    and procedures regarding export-controlled technology to prevent the transfer of
    technologies and technical information with potential military application to


                                        3
countries and entities of concern. Specifically, we evaluated whether critical
technologies and information associated with DoD contracts to contractor,
university, and Federally Funded Research and Development Center (FFRDC)
facilities were effectively controlled. We also reviewed the management control
program as it relates to the overall objective. See Appendix A for a discussion of
the scope and methodology and our review of the management control program.
See Appendix B for prior coverage related to the objectives.




                                     4
           DoD Export-Controlled Technology
           DoD does not have adequate processes to identify unclassified export-
           controlled technology and to prevent unauthorized disclosure to foreign
           nationals. Of the 11 contractors, 6 universities, and 3 FFRDC visited:

                   •   15 relied on the contract to identify whether the technology
                       was export controlled.

                   •   Three of the 11 contractors and 1 of the 3 FFRDCs were
                       unaware of Federal export laws and regulations related to
                       export-controlled technology.

           While DoD has established clear guidance to identify and prevent
           unauthorized disclosure of critical data for its acquisition and classified
           programs, DoD has not clearly defined policy for unclassified export-
           controlled technology. Specifically, DoD Directive 2040.2, “International
           Transfers of Technology, Goods, Services, and Munitions,” does not
           delineate DoD responsibilities to identify export-controlled technology.
           DoD Directive 2040.2 also does not provide sufficient policies and
           procedures to obtain reasonable assurance that facilities obtain a license or
           prevent foreign nationals from unauthorized access to unclassified export-
           controlled technology by ensuring that those requirements are included in
           the contract. In addition, the DFARS does not contain a standard clause
           that requires the facility to comply with Federal export laws and
           regulations related to export-controlled technology. As a result, at least
           two contractors and one university granted foreign nationals access to
           unclassified export-controlled technology without an export license or
           other authorized approval or qualifying for an exemption.


Export Control Guidance
    National Industrial Security Program. DoD Directive 5220.22, “DoD
    Industrial Security Program,” December 8, 1980, was issued to ensure that
    classified information released to industry is properly safeguarded. Subsequently,
    Executive Order 12829, “National Industrial Security Program,” January 6, 1993,
    established a national industrial security program to protect and safeguard Federal
    Government classified information. Pursuant to Executive Order 12829, DoD
    promulgated DoD Manual 5220.22, “National Industrial Security Program
    Operating Manual,” (NISPOM) January 1995, with incorporated Change One
    (July 1997) and Change Two (February 2001), which prescribes the procedures
    necessary to protect classified information. The NISPOM designates that both the
    Under Secretary of Defense for Policy and the Under Secretary of Defense for
    Intelligence are responsible for the development and approval of security policy
    for DoD and that the Defense Security Service is responsible for administering
    the National Industrial Security Program. The NISPOM prescribes specific
    security requirements necessary for safeguarding classified information in the
    interest of national security. Contractors cleared to access classified data,
    including that which is export controlled, are required to implement the security


                                         5
           requirements and safeguards necessary to prevent unauthorized disclosure. The
           NISPOM states that contractors shall not disclose export-controlled information
           and technology (classified or unclassified) to a foreign person unless such
           disclosure is authorized by an export license, other authorization from a U.S.
           Government authority, or an exemption to export licensing requirements. When
           foreign nationals are assigned to or employed by a cleared contractor, a
           technology control plan is also required and should contain procedures to prevent
           unauthorized access to export-controlled technology by using unique badging,
           segregated work areas, and other security measures as appropriate.

           Technology Transfer Guidance. DoD Directive 2040.2, “International
           Transfers of Technology, Goods, Services, and Munitions,” January 17, 1984,
           provides guidance to manage, control, and limit the transfer or export of
           technology, goods, services, and munitions consistent with U.S. foreign policy
           and national security objectives that minimally interfere with the conduct of
           legitimate trade and scientific endeavors. The Directive assigns overall
           responsibilities for international transfers of defense-related technology, goods,
           services, and munitions. Specifically, the Under Secretary of Defense for Policy
           is responsible for preparing technology transfer and export control policies and
           the Under Secretary of Defense for Acquisition, Technology, and Logistics is
           responsible for overseeing the implementation of DoD technology transfer
           policies for all research, development, and acquisition matters.

           The Inspector General of the Department of Defense (IG DoD) issued Report
           No. D-2000-110, “Export Licensing at DoD Research Facilities,” March 24,
           2000, which evaluated the adequacy of DoD policies and procedures for
           determining whether export licenses were required prior to the release of
           controlled technologies to foreign nationals visiting DoD research facilities. The
           audit concluded that DoD research facilities did not have adequate procedures in
           place for determining whether an export license was required for the release of
           export-controlled technology. As a result, a recommendation was made to the
           Under Secretary of Defense for Policy to revise DoD Directive 2040.2, to clearly
           state polices, procedures, and responsibilities of DoD and Military Department
           hosts for determining whether an export license is required for the release of
           export-controlled technology when foreign nationals visit a DoD facility. The
           Deputy Under Secretary of Defense for Technology Security Policy and
           Counterproliferation stated that as of December 2003, the revision to the
           Directive was ongoing because it required an extensive amount of time and work;
           however, she planned to have the revision completed sometime in 2004.

           Interim DoD Guidance. On November 7, 2002, the Deputy Under Secretary of
           Defense for Technology Security Policy and Counterproliferation issued interim
           guidance on export controls for biological agents.1 Although the memorandum is
           specific to biological agents, the interim policy is applicable to all DoD facilities
           responsible for controlling the release of technology and technical data. The
           interim guidance included draft follow-on guidance entitled “Managing Foreign
           Access: Implementing DoD Guidance on Restricted Technology,” which defines
           responsibilities for DoD program managers and on-site program and security

1
    The interim guidance was issued in response to IG DoD Report No. D-2003-021, “Export Controls Over
    Biological Agents (U),” November 12, 2002.



                                                    6
    managers for ensuring export control compliance. As of March 2004, the draft
    follow-on guidance had not been finalized.

    If the draft interim guidance on export controls and managing foreign access is
    formally approved and implemented, DoD program managers with access to
    export-controlled biological technology will be required to have a technology
    security control plan that details security measures to ensure that only authorized
    foreign nationals are allowed access. The guidance will also require site
    managers to have a foreign access control plan that tracks foreign access
    authorizations and ensures that the site security manager controls foreign national
    access by maintaining background check documentation, using a badging system,
    and notifying the foreign nationals of access limitations. DoD and DoD contract
    personnel with access to export-controlled biological technology will also be
    required to receive periodic site inspections and training. The Deputy Under
    Secretary of Defense for Technology Security Policy and Counterproliferation
    stated that the guidance will be formalized as soon as possible. While this
    guidance was designed to safeguard export-controlled biological technology, it
    should be expanded to identify the elements of technology security and foreign
    access control plans and require coordination with counterintelligence, security,
    and foreign disclosure personnel for all export-controlled technology.


Awareness and Prevention of Unauthorized Disclosure
    DoD does not have adequate processes to identify unclassified export-controlled
    technology and to prevent unauthorized disclosure. Of the 11 contractors,
    6 universities, and 3 FFRDCs visited, 15 stated that they relied on the contract to
    identify whether technology was export controlled. In addition, while all the
    universities were knowledgeable of Federal export laws and regulations, 3 of the
    11 contractors and 1 of the 3 FFRDCs were unaware of those requirements.

    Identifying Export-Controlled Technology. Contractors, universities, and
    FFRDCs used different methods to determine if contracts contain restrictions,
    such as export-controlled technology. Of the seven contractors, six universities,
    and two FFRDC who relied on the contract:

           •   Six contractors, two universities, and two FFRDCs relied solely on the
               contract to alert the facility that the contract may contain export-
               controlled technology that is subject to Federal export control laws.

           •   One contractor and four universities reviewed the contract, but
               supplemented their review with additional analysis.

    However, three contractors and one FFRDC did not rely on the contract to
    identify export-controlled technology, but instead performed their own analysis.
    For example, one of the three contractors identified export-controlled technology
    in four contracts using the EAR and ITAR and obtained the required authorization
    from the U.S. Government licensing authority for those technologies. None of
    those four contracts had language that identified Federal export laws or
    restrictions on foreign nationals. If that contractor had relied on the contract, the


                                          7
           export-controlled technology may not have been identified. One contractor had
           no method for identifying export-controlled technology. During the audit, we
           identified three basic types of clauses, which varied by contract, that could alert
           the facility to the fact that the contract might contain technology that is subject to
           export control laws. The three clauses reference Federal export laws and
           regulations, access by foreign nationals, and publication restrictions.

                   Clauses That Reference Export Control Laws. For the 20 contractors,
           universities, and FFRDCs visited, a total of 31 contracts were determined2 to
           contain export-controlled technology. Of those 31 contracts, 8 had clauses that
           referenced Federal export control laws. Those clauses identified the laws and
           regulations, but provided little detail on their application as it related to the
           contract. For example, one contract clause stated that the export of controlled
           information, without first obtaining approval or a license for items controlled by
           the EAR or the ITAR, might constitute a violation of law. Although the clause
           alerted the facility to the existence of export laws and the need to comply, it failed
           to identify what technology needed to be controlled.

                    Clauses That Reference Access by Foreign Nationals. Eight of the
           31 contracts that involved export-controlled technology contained clauses that
           pertained to access by foreign nationals. Those clauses normally stipulate
           measures that must be taken to utilize foreign nationals in the performance of the
           contract. The clauses do not state if the restriction on use of foreign nationals was
           due to Federal export laws, nor do they identify the technology involved in the
           contract that required the restriction. For example, one contract contained a
           restrictive clause that required the facility to receive approval from the
           contracting officer before using foreign nationals. However, the contracting
           officer approval does not exempt the facility from obtaining an export license or
           other authorized approval.

                    Clauses That Restrict Publication. Twenty-one of the 31 contracts that
           involved export-controlled technology contained clauses for restrictions on
           publication. Those clauses placed constraints on the publication and release of
           information pertaining to the contract. One contract used a clause requiring the
           contractor to receive approval from the contracting officer before releasing any
           information resulting from the contract performance. Another contract clause
           restricted release of information to anyone other than DoD. Despite alerting the
           facility that information may need to be controlled, the clauses did not identify the
           reason for the publication restrictions or the specific portions of the program to be
           controlled.

           Preventing Unauthorized Disclosure. Three of the 11 contractors and 1 of the
           3 FFRDCs were generally unaware of the Federal export laws and regulations to
           either obtain a license or prevent unauthorized disclosure of export-controlled
           technology. When releasing export-controlled technology to foreign nationals,
           Federal export laws and regulations require an entity to obtain either an export
           license or other authorized approval or to qualify for an exemption. If the facility

2
    The Defense Technology Security Administration and the IG DoD reviewed and identified at least
    31 contract statements of work that involved export-controlled technology. In addition, a contractor
    independently identified export-controlled technology in two statements of work.



                                                       8
           does not obtain a license or qualify for an exemption, it must have controls in
           place to ensure that foreign nationals do not have access to export-controlled
           technology. While all six universities were aware of Federal laws and regulations
           for export-controlled technology, most university contracts we reviewed qualified
           for an exemption to Federal export regulations.

                   Universities. All six of the universities applied the fundamental research
           exemption3 for a majority of their DoD contracts. The exemption allows the
           universities to perform research while maintaining a public and open atmosphere
           that promotes a culture of academia. Although the universities foster an open and
           sharing atmosphere for research, three universities were aware of accepting
           contracts involving export-controlled technologies. Those universities had
           controls in place to prevent unauthorized disclosure, such as controlled access to
           labs and badge requirements for specific buildings.

                   Cleared Facilities. Of the 14 cleared facilities,4 3 contractors,
           1 university, and 2 FFRDCs were generally unaware of the specific technology to
           be controlled in their contracts. However, the cleared facilities generally had
           controls in place to prevent unclassified export-controlled technology from
           unauthorized disclosure if the facility identified that the contract may contain
           export-controlled technology. The NISPOM requires that technology control
           plans contain procedures to prevent unauthorized access by foreign nationals for
           all export-controlled technology. A technology control plan should include
           unique badging requirements for foreign nationals, segregated work areas, and
           other security measures, as appropriate.

                   Of the 14 cleared facilities, 105 had technology control plans, 12 informed
           foreign nationals of access restrictions, and 9 provided some training on Federal
           export laws and regulations. Thirteen had physical access controls, but only 8 of
           the 14 cleared facilities required foreign nationals to wear unique badges.
           Although cleared contractors, universities, and FFRDCs had controls in place to
           prevent unauthorized disclosure when the export-controlled technology was
           identified, they may not have extended those controls to unclassified export-
           controlled technology that had not been identified.

                    Uncleared Facilities. Of the six uncleared facilities, three uncleared
           contractors were generally unaware of export licensing requirements to obtain a
           license or other authorized approval or prevent unauthorized disclosure of export-
           controlled technology to foreign nationals. Of the six uncleared facilities, one had
           a technology control plan, three had informed foreign nationals of access
           restrictions, and three had provided some training on Federal export laws and


3
    Fundamental research is an exemption to the export license requirements for both the EAR and ITAR and
    is defined as basic and applied research where the resulting information is ordinarily published and
    shared broadly within the scientific community.
4
    A cleared facility for the purposes of this report is a contractor, university, or FFRDC that is authorized to
    work on classified contracts, store classified information at their own facility, has controls in place to
    maintain a cleared status with DSS, and is required to comply with the NISPOM.
5
    One cleared contractor did not have foreign national employees, and thus, was not required to have a
    technology control plan.



                                                         9
                                regulations. The six uncleared facilities had no physical access controls and did
                                not require foreign nationals to wear unique badges.

                                The following figure shows that the 14 cleared facilities judgmentally selected6
                                for visits had better controls in place to prevent the unauthorized disclosure of
                                export-controlled information to foreign nationals than the 6 non-cleared facilities
                                judgmentally selected for visits.




                                                   The Percentage of Facilities Visited
                                                    with Specified Export Controls
                                                                 Cleared      Non-cleared
                                100%
     Percentage of Facilities




                                75%


                                50%


                                25%


                                 0%
                                        Technology       Foreign          Training    Physical        Badges
                                       Control Plans     National                     Controls
                                                       Informed of
                                                       Limitations




Policies, Procedures, and Responsibilities
                                While DoD has established clear guidance to identify and prevent unauthorized
                                disclosure of critical data for its acquisition and classified programs, DoD does
                                not have clearly defined policies for safeguarding unclassified export-controlled
                                technology. Specifically, the Under Secretary of Defense for Policy guidance
                                does not clearly delineate DoD responsibilities to identify export-controlled
                                technology. In addition, the guidance does not provide sufficient policies and
                                procedures to obtain reasonable assurance that contractors, universities, and

6
    Judgment sample does not generalize to universe.



                                                                     10
           FFRDCs obtain an export license, other authorized approval or exemption, or
           prevent foreign nationals from unauthorized access to unclassified export-
           controlled technology by ensuring that those requirements are included in the
           contract. Also, the DFARS does not contain a standard clause that requires the
           facility to comply with Federal export laws and regulations related to export-
           controlled technology.

           Identification of Critical Data in Program Management Plans. DoD
           acquisition guidance (5000 series) requires DoD program managers to identify
           classified and controlled unclassified data that require additional
           counterintelligence and security support early in the research, development, and
           acquisition process. When an acquisition program contains critical information,7
           the program manager is required to develop a program protection plan8 and
           countermeasures to prevent the exploitation of U.S. technology from unauthorized
           disclosure. The program protection plan is a joint effort between program,
           security, intelligence, and foreign disclosure personnel. DoD acquisition
           guidance also requires the Under Secretary of Defense for Acquisition,
           Technology, and Logistics to ensure that contracts that require access to critical
           program information identify the critical information, describe any necessary
           countermeasures, and allow access to facilities by DoD to review the program
           protection plan implementation.

           DoD export control guidance does not provide sufficient policies or procedures,
           define responsibilities and accountability for identifying export-controlled
           technology, or ensure compliance with Federal export laws and regulations.
           Specifically, the Under Secretary of Defense for Policy has not developed export
           control guidance commensurate with acquisition guidance. DoD Directive 2040.2
           does not define the responsibilities of the DoD program manager or require the
           program manager to develop a plan that identifies export-controlled technology.
           In addition, DoD Directive 2040.2 does not require counterintelligence, security,
           and foreign disclosure personnel to assist in the development of the plan that
           identifies threats, vulnerabilities, and countermeasures required to prevent foreign
           nationals from obtaining unauthorized access. Finally, the guidance does not
           ensure that contracts that involve export-controlled technology identify the
           technology, describe any necessary countermeasures, or require compliance
           reviews.

           Identification of Data in Contracts. The Federal Acquisition Regulation and
           the DFARS clauses are the mechanisms used to convey specific requirements to
           the contractor when executing a contract. The contracting officer is responsible
           for the insertion of required clauses to ensure that contractors are aware of access
           to classified information and to obtain reasonable assurance that the classified


7
    Critical program information is defined as information that, if compromised, would degrade combat
    effectiveness, shorten the expected combat-effective life, or significantly alter program direction. Critical
    program information can be classified military information, unclassified controlled information, or
    technology.
8
    Elements of a program protection plan include a listing of the critical program information to be
    protected; critical program information threats, vulnerabilities and countermeasures; a technology
    assessment control plan; protection costs; and foreign disclosure and sales considerations.



                                                        11
data is protected. Although clauses exist for classified data, similar clauses do not
exist for unclassified technology subject to export control.

        Classified Data. Federal and DoD acquisition guidance states that
contracting officers shall review all proposed solicitations to determine whether a
contractor may require access to classified information during contract
performance. If access might be required, the contracting officer shall ensure that
the standard security requirement clause is incorporated into the solicitation and
contract. The security requirement clause states that the facility shall comply
with the NISPOM and that the contractor must agree to insert the terms of the
security requirement clause in all subcontracts that involve access to classified
information. While there is clear guidance for identification and protection of
classified data in solicitations and contracts, DoD guidance does not clearly
delineate responsibilities for identifying and preventing unauthorized disclosure
of unclassified technology subject to export controls.

        Export-Controlled Technology. The DFARS does not contain a
standard clause that identifies Federal export laws and regulations related to
export-controlled technology or the use of foreign nationals during the
performance of contracts. Of the 20 facilities visited, officials at 15 stated that
they relied on the solicitation and the contract to identify export-controlled
technology. Officials at several facilities mentioned the importance of indicating
the potential for export-controlled technology in the solicitation. In one case, a
contractor stated that if the solicitation indicated the existence of export-
controlled technology, he would not have expended resources in preparing a
proposal because he did not have the controls in place to prevent unauthorized
access. In another case, university officials stated that after being awarded a
contract, the officials identified that the contract contained export-controlled
technology and they had to determine whether they could prevent unauthorized
disclosure or otherwise terminate the contract.

Because the DFARS does not contain a standard clause to identify Federal export
laws and regulations, Military Services, Defense agencies, contractors,
universities, and FFRDCs have developed their own prime and subcontract
clauses. However, the clauses vary in detail by contracting office. For example,
one contract clause only warned that the technology was subject to the Arms
Export Control Act and that violations were subject to severe criminal penalties.
Air Force Material Command Federal Acquisition Regulation 5352.227-9000,
“Export-Controlled Data Restrictions,” is another example. The Air Force
Material Command regulation defines what constitutes a foreign national and
explicitly states that technical data generated or delivered under the contract is
controlled by the ITAR. The Regulation also states that export licenses are
required before allowing foreign nationals access the technology.

Contractor Guidance to Protect Critical Data. The NISPOM establishes
contractor requirements and necessary safeguards at cleared facilities to include
protection of classified data and export-controlled technology (classified or
unclassified) from unauthorized access. Although the NISPOM outlines
safeguards and facility requirements to prevent unauthorized disclosure of
classified and export-controlled technology, the NISPOM assumes that the
technology to be protected has been identified.


                                     12
            Safeguards. Safeguards are necessary to protect classified and export-
    controlled technology. Specific to exports, the NISPOM states that contractors
    shall not disclose export-controlled information and technology, classified or
    unclassified, to a foreign person unless such disclosure complies with applicable
    U.S. laws and regulations. Compliance with Federal export laws and regulations
    requires that the entity obtain either an export license or other authorized approval
    or qualify for an exemption. In addition, a technology control plan should be
    developed and implemented to identify security measures necessary to prevent the
    possibility of disclosure of unauthorized information to foreign national
    employees and visitors if the entity does not obtain an export license. Controls
    such as unique badging, escorts, and segregated work areas are recommended.
    However, those safeguards alone may not adequately protect export-controlled
    technology unless they are combined with other requirements, such as training
    and periodic compliance reviews.

            Training and Compliance Reviews. The NISPOM requires facilities
    with authorized access to classified information to appoint a facility security
    officer responsible for supervising and directing security measures. Facility
    security officers must complete security training, the level of which is determined
    by the facility’s utilization of classified information. Security officers are also
    responsible for training its cleared employees. Before granting access to
    classified information, an employee should receive an initial security briefing that
    includes security procedures, threat awareness, and employee obligations.
    Refresher training is required to reinforce information provided during the initial
    security briefing and to inform the employees of any changes in order to ensure
    that safeguards are adequate. Security reviews by a cognizant security agency
    and contractor self-assessments are also required on a reoccurring basis.
    Although the NISPOM requires cleared facilities to perform training and conduct
    periodic reviews, it does not ensure that the training and reviews will include
    unclassified export-controlled technology.


Release of Export-Controlled Technology
    Two contractors and one university granted foreign nationals access to
    unclassified export-controlled technology without proper authorization. Of the
    four uncleared contractors, two allowed foreign nationals access to export-
    controlled technology without obtaining an export license or other authorized
    approval or qualifying for an exemption. Of the six universities, at least one
    university allowed foreign nationals access to export-controlled technologies
    without obtaining an export license. Unauthorized access to unclassified export-
    controlled technology could allow foreign nations to counter or reproduce the
    technology and thus reduce the effectiveness of the program technology,
    significantly alter program direction, or degrade combat effectiveness.

    The contractors were involved with innovative research and development that
    could have a significant technological impact if compromised. The contracts did
    not identify the export-controlled technologies, and the contractors were unaware
    of export law requirements and regulations or how to safeguard unclassified
    export-controlled technology from unauthorized access.


                                         13
           Contractor A. Contractor A conducts DoD research and development on
           robotics and logistics software while employing five foreign nationals from
           Brazil, India, Macedonia, and South Korea. A contractor official stated that a
           South Korean foreign national annually visited China. We found that foreign
           nationals had unauthorized access to at least two of the five contracts that
           involved export-controlled technologies.

                   Contract One. Contract one involved efforts to develop an
           intelligence/counterintelligence system for targeting and tracking individuals.
           The system was determined to be export-controlled technology under ITAR Part
           121, category XI(b). Category XI states that the following should be export-
           controlled:
                         Electronic systems or equipment specifically designed, modified, or
                         configured for intelligence, security, or military purposes for use in
                         search, reconnaissance, collection, monitoring, direction-finding,
                         display, analysis, and production of information from the electro-
                         magnetic spectrum and electronic systems or equipment designed or
                         modified to counteract electronic surveillance or monitoring.

                   The contract contained a clause restricting foreign nationals9 that required
           the contractor to notify and receive approval from the contracting officer in order
           for foreign nationals to participate in the contract. The DoD contracting officer
           granted permission for a foreign national to participate in the performance of the
           contract. However, that permission was not an exemption to the ITAR
           requirements for an export license. The contractor is required to obtain an export
           license or other authorized approval or qualify for an exemption for any foreign
           nationals that are granted access to the export-controlled technology.

                   Contract Two. Contract two involved efforts to develop an interface that
           would allow military commanders to visually collaborate real-time data to
           enhance understanding of situations, plans, and actions. Two unauthorized
           foreign nationals participated in the contract and had access to the export-
           controlled information. The system technology was export controlled under
           ITAR Part 121, category XI(a). Category XI(a) states that command, control, and
           communications systems including radios, navigation, and identification
           equipment should be export controlled.

                   The contract contained a clause restricting foreign nationals10 that required
           the contractor to notify and receive approval from the contracting officer in order
           for foreign nationals to participate in the contract. DoD contracting personnel
           stated that permission for the two foreign nationals to work on the program was
           not granted. The contractor should have obtained an export license or other
           authorized approval or qualified for an exemption before any foreign nationals
           were granted access to the export-controlled technology, or the technology should
           have been safeguarded. The contractor stated that they relied on the contract to
           identify export-controlled technology.
9
    The contract also contained a reference to export control laws.
10
     The contract also contained a publication clause that required the contractor to submit and receive
    approval from the contracting officer before publishing information relating to the contract.



                                                       14
           Contractor A was unaware of the Federal export requirements and how to
           implement those requirements. The contractor did not provide training and did
           not have adequate access controls in place to safeguard the export-controlled
           technology from unauthorized access by foreign nationals that worked at or
           visited the facility. The contractor stated that personnel had not been provided
           export control training because the contractor did not believe they were exporting
           any export-controlled technology. Without export control training, the contractor
           was unaware that they either needed to apply for an export license or establish
           procedures to prevent the release of the technology to foreign nationals. Also, the
           contractor did not adequately safeguard export-controlled technology at that
           facility. During the review, we identified physical control deficiencies at the
           facility. For example, the contractor had an open floor plan without physical
           controls to prevent foreign nationals from access to export-controlled technology.

           Contractor B. Contractor B conducts research and development on electronics
           and engineering while employing foreign nationals from Australia, Italy, the
           Netherlands, New Zealand, and South Africa. We found that foreign nationals
           had unauthorized access to at least two of the four contracts that involved export-
           controlled technologies.

                  Contract One. Contract one involved the development of a missile
           environmental monitor. An unauthorized foreign national participated in the
           contract and had access to the export-controlled technology. The environmental
           monitor was determined to be export-controlled technology under ITAR Part 121,
           category IV(h). Category IV states the following should be export controlled:
                        Launch vehicles and missile and anti-missile systems including but not
                        limited to guided, tactical and strategic missiles, launchers, and systems
                        . . . [and] all specifically designed or modified components, parts,
                        accessories, attachments, and associated equipment for the articles in
                        this category.

                   The contract contained a publication restriction clause that required the
           contractor to receive approval from the contracting officer before publishing
           information relating to the contract. The contract did not identify the export-
           controlled technologies. The contractor stated that they relied on the contract to
           identify export-controlled technology and, therefore, did not consider any of the
           technology to be subject to export controls.

                  Contract Two. Contract two involved efforts to develop an
           electromagnetic fuel valve system that is targeted for the F119 engine,11 which is
           export controlled under ITAR Part 121, category VIII. Four unauthorized foreign
           nationals participated in the contract and had access to the export-controlled
           information. Category VIII states the following should be export controlled:
                        Aircraft, including but not limited to helicopters, non-expansive
                        balloons, drones, and lighter-than-air aircraft . . . [to include] Military
                        aircraft engines . . . specifically designed or modified for the aircraft.


11
     The F119 engine powers the F/A-22 Raptor air dominance fighter.



                                                       15
        The contract did not contain any restrictive clauses and did not identify
export-controlled technologies. Because the electromagnetic fuel valve system
was export controlled, the contractor should have obtained an export license or
other authorized approval or qualified for an exemption before any foreign
nationals were granted access to the export-controlled technology. The contractor
stated that they relied on the contract to identify restrictions, including export-
controlled technology and, therefore, did not consider any of the technology to be
export controlled.

Contractor B was unaware of the Federal export requirements and how to
implement those requirements. The contractor did not provide training and did
not have adequate access controls in place to protect the export-controlled
technology from unauthorized access by foreign nationals that worked at or
visited the facility. Management stated that personnel were not provided export
control training because the contractor did not believe they were exporting any
export-controlled technology. Without export control training, the employees did
not implement controls to safeguard the export-controlled technologies. During
our review, we identified physical control deficiencies at the facility. For
example, the contractor had an open floor plan that did not segregate information
in different programs. The contractor had a lab that required a key for access;
however, unauthorized foreign nationals still had access. Within the lab, there
were no physical controls over any of the technology being developed.

Export-Controlled Technologies at Universities. One university allowed
foreign nationals access to export-controlled technologies without obtaining an
export license or other authorized approval or qualifying for an exemption. The
overall risk of unauthorized foreign nationals gaining access to export-controlled
technologies at universities is significant when universities are not aware of
export-controlled technologies. Generally, universities have large numbers of
foreign national students. At one university, non-U.S. citizens comprised over
one quarter of its graduate student population. China, India, and South Korea
were the top three countries of origin for the international student population.

For the six universities, if the contract did not contain any restrictive language,
the universities generally presumed that the research was fundamental. However,
we identified one contract that involved export-controlled technologies at a
university where a foreign national had unauthorized access. The contract
involved efforts to develop a military air campaign planning aid. The tasks
included conducting interviews with Government-approved experts to identify
different kinds of local and global problems in air campaign plans. This type of
information is export controlled under the ITAR Part 121, category XI(a).
Category XI(a) states that command, control, and communications systems
including radios, navigation, and identification equipment should be export
controlled. At least one unauthorized foreign national participated in the
performance of the contract and had access to the export-controlled information.

The university stated that if the contract did not contain restrictive language, they
considered the research fundamental and exempt from obtaining an export
license. The contract did not contain any restrictive language; therefore, the
university concluded that the contract was fundamental research. However, the
contract also involved some classified information. The NISPOM requires review


                                     16
    and approval before public release of any information related to a contract that
    contains classified information. The program did not qualify for the fundamental
    research exemption because the university could not publish the results of the
    program without DoD review and approval. The university should have obtained
    the proper authorization for the foreign national or safeguarded the
    export-controlled information.

    At least one unauthorized foreign national had access to export-controlled
    technologies because the contract did not identify the controlled technologies and
    the university incorrectly applied the fundamental exemption. Because a primary
    goal of universities is the open exchange of knowledge, the risk of unauthorized
    foreign nationals being granted access to export-controlled technologies is
    significant.


Conclusion
    DoD does not have adequate processes to identify unclassified export-controlled
    technology and to prevent unauthorized disclosure. The Under Secretary of
    Defense for Acquisition, Technology, and Logistics and the Deputy Under
    Secretary of Defense for Technology Security Policy and Counterproliferation
    should develop and implement guidance for export-controlled technology
    commensurate with acquisition and classified program guidance. The DFARS
    should be changed to incorporate the requirements of Federal export laws and
    regulations and to ensure that DoD program managers and contracting officers
    incorporate the requirements into contractual language when the contracts involve
    export-controlled technology. In addition, guidance for export-controlled
    technology should be developed and expanded to include DoD and facility
    personnel responsibilities and requirements applicable to all export-controlled
    technology. The guidance implementation should provide reasonable assurance
    that facilities are aware of the export-controlled technology regulations and do not
    inadvertently allow foreign nationals unauthorized access to export-controlled
    technology. Until DoD program managers are held accountable for identifying
    export-controlled technology and are assured that facilities obtain authorized
    approval or have controls in place to protect the export-controlled technology,
    DoD will be at increased risk of other nations countering or reproducing the
    technology, thus reducing its effectiveness.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    Recommendation 1.a.(3) to include unique badging requirements for foreign
    nationals and segregated work areas where controlled technology is involved.

    1. We recommend that the Deputy Under Secretary of Defense for
    Technology Security Policy and Counterproliferation:



                                        17
      a. Expand “Interim Guidance on Export Controls for Biological
Agents,” November 7, 2002, to:

              (1) Encompass all export-controlled technology.

               (2) Require program managers, in coordination with
counterintelligence, security, and foreign disclosure personnel to:

                       (a) Identify export-controlled technology, foreign
national restrictions, and licensing requirements.

                      (b) Identify threats by foreign countries that are
targeting the specific technologies.

                     (c) Identify vulnerabilities and countermeasures to
protect the export-controlled technology.

               (3) Require program managers and contracting officers to
ensure that contracts identify the export-controlled technology and contain
requirements to maintain an access control plan, including unique badging
requirements for foreign nationals and segregated work areas for controlled
technology; perform export compliance training; conduct annual self-
assessments; and comply with Federal export laws by obtaining an export
license, other authorized approval or exemption, or by safeguarding the
technology when contracts involve export-controlled technology or
information.

       b. Incorporate the interim guidance into the revision of DoD
Directive 2040.2, “International Transfers of Technology, Goods, Services,
and Munitions” January 17, 1984, to include the roles and responsibilities of
the program managers, counterintelligence, security, and foreign disclosure
personnel.

Management Comments. The Deputy Under Secretary of Defense for
Technology Security Policy and Counterproliferation concurred in general with
the Finding and Recommendation 1. Specifically, the Deputy Under Secretary
stated that issues raised by the Services on the initial draft guidance were
currently being resolved and that she plans to issue the revised guidance
applicable to all export-controlled technology in April 2004. Although she agreed
that additional policy guidance would be helpful, she also stated that guidance
already exists that clearly prohibits the transfer of controlled technology by all
Government and private entities without an export license, authorization, or
exemption; includes detailed Commerce Control List and U.S. Munitions List
item references; and establishes points of contact to answer licensing questions.
In addition, the Deputy Under Secretary stated that teams of functional area
experts will soon be available to brief program managers, research center
personnel, and other interested parties on request. Based on the guidance already
available by her office, the Deputy Under Secretary does not believe there is
justification for further delay in the adoption and implementation of Technology
Control Plans and Foreign Access Control Plans.



                                    18
Audit Response. The Deputy Under Secretary of Defense for Technology
Security Policy and Counterproliferation comments were fully responsive.
Although we agree there should be no further delays in the adoption and
implementation of Technology Control Plans and Foreign Access Control Plans,
we do not agree that the interim and follow-on guidance is fully effective.
Although the interim guidance can be applied to all DoD facilities responsible for
controlling the release of technology and technical data, the guidance was
specifically designed to safeguard export-controlled biological technology. In
addition, DoD facilities responsible for controlling the release of technology and
technical data may be hesitant to implement the follow-on draft guidance due to
the likelihood of changes that may occur between draft and final. Formally
approving and expanding the guidance to include all export-controlled technology
should ensure a DoD-wide dissemination of policy and the implementation of
controls over the release of export-controlled technology and technical data.

2. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics:

      a. Develop and incorporate into the Defense Federal Acquisition
Regulation Supplement an export compliance clause that requires that the
contractor:

               (1) Comply with Federal export regulations and DoD guidance
for export-controlled technology and technical data by obtaining an export
license, other authorized approval or exemption, and preventing
unauthorized disclosure to foreign nationals.

              (2) Incorporate the terms of the clause in all subcontracts that
involve export-controlled technology.

               (3) Conduct initial and periodic training on export compliance
controls for those employees who have access to export-controlled
technology.

              (4) Perform periodic self-assessments to ensure compliance
with Federal export laws and regulations.

       b. Require that contracting officers incorporate the appropriate
export compliance clause into the solicitation and contract.

Under Secretary of Defense for Acquisition, Technology and Logistics
Comments. The Under Secretary of Defense for Acquisition, Technology, and
Logistics concurred with Recommendation 2. Specifically, the Under Secretary
of Defense for Acquisition, Technology, and Logistics will initiate the process of
changing the Defense Federal Acquisition Regulation Supplement in accordance
with the recommendation, and the process will take an estimated 10 months to
complete. The Director, Defense Research and Engineering, in consultation with
the Director for International Cooperation, will ensure that DoD Components that
issue science and technology contracts are aware of the Federal export regulations
and the planned changes to the Defense Federal Acquisition Regulation



                                    19
Supplement. The Director, Defense Research and Engineering will also ensure
that the science and technology contracts comply with those changes.

Deputy Under Secretary of Defense for Technology Security Policy and
Counterproliferation Comments. Although not required to comment on
Recommendation 2., the Deputy Under Secretary of Defense for Technology
Security Policy and Counterproliferation agreed that DoD contracts should
explicitly state the obligations of contractors when performing work on behalf of
the Government.




                                    20
Appendix A. Scope and Methodology
            We reviewed the Export Administration Act, the Arms Export Control Act, and
            the associated EAR and the ITAR. In addition, we evaluated the adequacy of
            DoD directives, policies, regulations, and memorandums related to the disclosure
            and transfer of militarily sensitive and critical technologies to foreign nationals
            from 1980 through 2003. We performed this audit from June 2003 through
            January 2004 in accordance with generally accepted government auditing
            standards. Our scope was limited due to time and resource constraints.
            Specifically, we were unable to interview a sufficient number of program
            management and contracting officials to determine why export-controlled
            technology was not identified in the contracts.

            To determine the adequacy of established DoD policies and procedures to prevent
            the transfer of export-controlled technologies and technical information to foreign
            nationals, we judgmentally selected 20 facilities to visit (11 contractors,
            6 universities, and 3 FFDRCs). We were unable to identify a reliable universe of
            DoD-sponsored facilities conducting research and development or producing
            products that may contain export-controlled technology. Using the Defense
            Security Service annual report “Technology Collection Trends in the U.S.
            Defense Industry 2003,” we identified targeted technology and collection
            techniques used by foreign entities. The facilities were then selected through
            various means such as Internet queries and requests by DoD officials to visit
            facilities that performed contractual work on Defense Security Service-identified
            targeted technology. We also selected facilities involved with the Small Business
            Innovative Research and the Small Business Technology Transfer1 programs.
            During the facility visits, we reviewed contracts to determine whether export-
            controlled technology was identified.

            We reviewed 116 contracts to identify clauses that could have alerted facilities
            that the contract may involve export-controlled technology. For the purposes of
            this report, we combined prime contracts and sub-contracts with identical
            statements of work as one contract. Specifically, we examined the contracts to
            identify Federal export laws and regulations, restrictions on access by foreign
            nationals, and restrictions on the publication of contract results. Of the
            116 contracts we reviewed, we obtained 94 statements of work. Of that 94, the
            Defense Technical Service Administration reviewed 75 for export-controlled
            technology. Of that 75, the Defense Technical Service Administration and the IG
            DoD identified at least 31 statements of work that involved export-controlled
            technology. In addition, a contractor independently identified export-controlled
            technology in two statements of work. Of the 33 statements of work that should
            have identified export-controlled technology in the contract, 20 contained at least
            one reference to Federal export laws and regulations, foreign nationals, or
            publication restrictions.

1
    The Small Business Innovation Research program funds early stage research at small technology
     companies to stimulate technological innovation and increase small business participation. The Small
     Business Technology Transfer program is a similar program in structure, but funds cooperative projects
     involving a small business and a research institution.



                                                      21
    At each facility, we interviewed contracting and project managers, security,
    human resources, and legal personnel, when applicable, to determine their
    knowledge of Federal export laws and regulations and to identify controls in place
    to prevent the export-controlled technology from unauthorized disclosure.
    Additionally, we conducted interviews with officials from the Office of the Under
    Secretary of Defense for Acquisition, Technology, and Logistics and its
    components; the Under Secretary of Defense for Policy and its components; the
    Under Secretary of Defense for Intelligence; the Deputy Under Secretary of
    Defense for Industrial Policy; the Secretary of the Air Force International Affairs;
    the Navy International Programs Office; the Office of Naval Research; the Army
    Aviation and Missile Command; and the Army Space and Missile Defense
    Command. Outside of DoD, we met with Department of Commerce Bureau of
    Industry and Security, the Department of State Office of Defense Trade Controls,
    and the Federal Bureau of Investigation.

    Use of Computer-Processed Data. We did not use computer processed data to
    perform this audit.

    Use of Technical Assistance. Technical engineers from Defense Technology
    Security Administration provided assistance to the team during the course of this
    project. The engineers reviewed 75 of the 94 statements of work to determine
    whether they included export-controlled technology. The Defense Technology
    Security Administration identified 52 contracts that contained export-controlled
    technology, and we reviewed those contracts for restrictive clauses. Analysis by
    the Defense Technology Security Administration provided additional support for
    the finding.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We evaluated
    whether critical technologies and information at DoD-sponsored contractor,
    university, and FFRDC facilities were effectively controlled. We reviewed the
    adequacy of the policies and procedures the Under Secretary of Defense for
    Acquisition, Technology, and Logistics and the Deputy Under Secretary of
    Defense for Technology Security Policy and Counterproliferation had for
    preventing the transfer of unauthorized export-controlled technology with
    potential military application to countries of concern. We also reviewed
    management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weakness within DoD as defined by DoD Instruction 5010.40.
    Specifically, critical technology and information contracted to DoD-sponsored
    facilities were not effectively controlled. We attribute this weakness to the lack


                                         22
of guidance related to export-controlled technology. The Under Secretary of
Defense for Acquisition, Technology, and Logistics and the Deputy Under
Secretary of Defense for Technology Security Policy and Counterproliferation
have not developed adequate management controls to ensure that program
managers identify export-controlled technology in contracts or obtain reasonable
assurance that contractors comply with Federal export laws. The
recommendations, if implemented, will provide the Office of the Secretary of
Defense with a more effective tool to manage its export control program and
prevent the unauthorized transfer of export-controlled technology. A copy of the
report will be provided to the Office of the Secretary of Defense officials
responsible for the formation and implementation of DoD export controls.

Adequacy of Management’s Self-Evaluation. DoD officials did not identify
policies and procedures regarding export-controlled technology as an assessable
unit and, therefore, did not identify or report the material management control
weakness identified by the audit.




                                   23
Appendix B. Prior Coverage
    During the last 5 years, Congress, the General Accounting Office (GAO) and the
    IG DoD have conducted multiple reviews discussing the adequacy of
    management controls over transfers of sensitive and critical DoD technology with
    potential military application to foreign nationals. Unrestricted GAO reports can
    be accessed over the Internet at http://www.gao.gov. Unrestricted IG DoD
    reports can be accessed at http://www.dodig.osd.mil/audit/reports. The following
    previous reports are of particular relevance to the subject matter in this report.


GAO
    General Accounting Office Report No. GAO-02-972, “Export Controls:
    Department of Commerce Controls over Transfers of Technology to Foreign
    Nationals Need Improvement,” September 6, 2002

    General Accounting Office Report No. GAO-02-63, “Defense Trade: Lessons to
    Be Learned from the Country Export Exemption,” March 29, 2002


IG DoD
    IG DoD Report No. D2003-070, “Export Controls: DoD Involvement in Export
    Enforcement Activities,” March 28, 2003

    IG DoD Report No. D-2003-021, “Security: Export Controls Over Biological
    Agents (U),” November 12, 2002

    IG DoD Report No. D-2002-039, “Automation of the DoD Export License
    Application Review Process,” January 15, 2002

    IG DoD Report No. D-2001-088, “DoD Involvement in the Review and Revision
    of the Commerce Control List and the U.S. Munitions List,” March 23, 2001

    IG DoD Report No. D-2001-007, “Foreign National Security Controls at DoD
    Research Laboratories,” October 27, 2000

    IG DoD Report No. D-2000-130, “Foreign National Access to Automated
    Information Systems,” May 26, 2000

    IG DoD Report No. D-2000-110, “Export Licensing at DoD Research Facilities,”
    March 24, 2000

    IG DoD Report No. 99-186, “Review of the DoD Export Licensing Processes for
    Dual-Use Commodities and Munitions,” June 18, 1999



                                        24
Congressional
    Congressional Report No. RL31845, “Sensitive but Unclassified and Other
    Federal Security Controls on Scientific and Technical Info: History and Current
    Controversy,” April 2, 2003


Interagency Reviews
    Inspectors General of the Departments of Commerce, Defense, State, and the
    Treasury; the Central Intelligence Agency; and the United States Postal Service
    Report No. D-2003-069, “Interagency Review of Federal Export Enforcement
    Efforts,” April 18, 2003

    Inspectors General of the Departments of Commerce, Defense, Energy, State, and
    the Treasury Report No. D-2002-074, “Interagency Review of Federal Automated
    Export Licensing Systems,” March 29, 2002

    Inspectors General of the Departments of Commerce, Defense, Energy, and State
    Report No. D-2001-092, “Interagency Review of the Commerce Control List and
    the U.S. Munitions List,” March 23, 2001

    Inspectors General of the Departments of Commerce, Defense, Energy, and State
    Report No. D-2000-109, “Interagency Review of the Export Licensing Process
    for Foreign National Visitors,” March 24, 2000

    Inspectors General of the Departments of Commerce, Defense, Energy, State, and
    the Treasury, and the Central Intelligence Agency Report No. 99-187,
    “Interagency Review of the Export Licensing Processes for Dual-Use
    Commodities and Munitions,” June 18, 1999




                                       25
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and
 Logistics
  Deputy Under Secretary of Defense (International Technology
   Security)
  Director, Defense Procurement and Acquisition Policy
  Director of Defense Research and Engineering
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Policy
  Deputy Under Secretary of Defense (Technology Security
   Policy and Counterproliferation)
Under Secretary of Defense for Intelligence

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Security Service

Non-Defense Federal Organization
Office of Management and Budget
Director, National Security Agency
Inspector General, Department of Commerce
Inspector General, Department of Energy
Inspector General, Department of Homeland Security
Inspector General, Department of State
Inspector General, Central Intelligence Agency



                                          26
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Select Committee on Intelligence
Senate Committee on Foreign Relations
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform
House Committee on International Relations
House Subcommittee on National Security Emerging Threats
 and International Relations
House Permanent Select Committee on Intelligence




                                        27
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                       29
30
     Final Report
      Reference




     Page 4
     Revised



     Page 5

     Revised


     Page 7

     Revised




     Page 11

     Revised


     Page 18



     Page 14

     Page 14




31
               Deputy Under Secretary of Defense for
               Technology Security Policy and
               Counterproliferation Comments
Final Report
 Reference




Added text




                                     32
33
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Evelyn R. Klemstine
A. Dahnelle Alexander
Gary A. Clark
Brett A. Mansfield
James E. Miniter
Steve B. Bennett
Troy R. Zigler
Susann L. Cobb
